Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.
That on 4/29/2021 deponent caused to be served 1 copy(s) of the within
Reply to Opposition
upon the attorneys at the address below, and by the following method:
By Overnight Delivery
ElizabethB. Prelogar, AUSA
Office of the Solicitor
General
Department of Justice,
950 Pennsylvania Avenue, N.W.,
Room 5614,
Washington D.C. 20530-0001
202-514-2217

Sworn to me this

Case Name: Shameke Walker v. USA

Thursday, April 29, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No: 20-7183
Index:

